                   CLOSEOUT MEMORANDUM FOR A-01060021

OIG received a call from NSF's Animal Care representative referencing the application
for a Single Project Assurance (SPA) from a university1 for a pending proposal2. The
NSF representative noted that the university had an active award3 with animal
experimentation but that NSF had not approved a SPA. During our review of the active
award jacket, we noted the animal care certifications had been signed off by the Principal
Investigator (PI) on the award who is also the chair of             This is a clear COI.

OIG contacted the provost4 at the university to request copies of the MPA/SPA for the
award,           roster,          meeting minutes that discussed the award and the
inspection report for the animal care facility at the university. The Provost indicated that
there were no            documents available and no inspection report because there was no
facility to inspect at the time the proposal was submitted. This suggests that the Animal
Welfare certificate previously submitted by the PI is invalid.

After fbrther review of the proposal and talking to the Institutional Official, OIG
discovered that in addition to the COI there were false statement issues concerning this
proposal. Since matters of this type are outside the scope of an A-case, we are closing
this inquiry and transferring this matter to an I-case.

cc: Investigations; IG




                                Page 1 of 1'                               A01-21
